A U D I T M E M O R A N D U M N O. 36

                                                                                   March 29, 2004
To:        Jayne Seidman
From: Walter Stachnik
Re:        Priority to Rural Areas for New Offices
In Audit Memorandum No. 30, issued June 19, 2003, we recommended that the Office of
Human Resources and Administrative Services (OHRAS),1 establish and maintain policies and
procedures giving first priority to the location of new offices and other facilities in rural areas, as
required by the Rural Development Act of 1972 (RDA), 7 U.S.C. § 2204b-1. We also
recommended that OHRAS comply with the RDA requirement (and the policies and procedures
they established to implement the requirement) when deciding on the location of Commission
offices and other facilities. 2

The Consolidated Appropriations Act of 2004 (Public Law 108-199) Division F, Title V1 Section
636 enacted January 23, 2004, requires the Inspector General of each agency to submit a
report to the Committee on Appropriations. The report should provide details on the policies and
procedures the agency has in place to give first priority to the location of new offices in rural
areas, as directed by the RDA.

OHRAS is in the process of implementing our prior recommendations. It has drafted an update
to the Commission’s space management guidance (SECR 5-8) to incorporate the RDA
requirements. OHRAS considered the RDA requirement by preparing needs analysis when the
Boston District Office’s lease for office space recently needed to be renewed.


           Recommendation A
           OHRAS should finalize its update to the space management guidance incorporating the
           RDA requirements.
cc:
           George Brown
           Peter Derby
           Jim McConnell
           Darlene Pryor
           Don Sherman



1
    Formerly the Office of Administrative and Personnel Management (OAPM),
2
    Section 638 of the Consolidated Appropriations Resolution, 2003, (Public Law 108-7, enacted February 20, 2003)
     required a report by the Office of Inspector General of each agency on compliance with this requirement. Our audit
     memorandum fulfilled this requirement.
